BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Hensley K.
McCalla v. Liberty Life Assurance Company of Boston;
Lincoln Financial Group, was sent via Three Day
Service to the U.S. Supreme Court, and 3 copies were
sent Three Day Service and e-mail to the following
parties listed below, this 19th day of July, 2021:
Byrne J. Decker
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
2 Monument Square, 7th Floor
Portland, ME 04101
(207) 387-2963
byrne.decker@ogletree.com
Counsel for Respondents
Michael Confusione
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

1

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

?It 5/k1

a~~-

Notary Public

-

[seal]

AMY TRIPLEIT MORGAN

Attorney al Law
Notary Public, Slate of Ohio
My Commission Has No Expiration
Date. Section 147.03 O.R.C.

